<html>
<title> - U.S. COAST GUARD MISSION PERFORMANCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  U.S. COAST GUARD MISSION PERFORMANCE

=======================================================================

                                (109-97)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
30-667                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Nimmich, Rear Admiral Joseph L., Assistant Commandant for Policy 
  and Planning, U.S. Coast Guard.................................     2
 Stulginsky, Edward, Deputy Assistant Inspector General for 
  Audits, Department of Homeland Security........................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Filner, Hon. Bob. of California..................................    23
LoBiondo, Hon. Frank A., of New Jersey...........................    26
Oberstar, Hon. James L., of Minnesota............................    38

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Nimmich, Rear Admiral Joseph L..................................    31
 Stulginsky, Edward..............................................    41


              UNITED STATES COAST GUARD MISSION PERFORMANCE

                              ----------                              


                      Thursday, September 14, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Coast Guard and Maritime Transportation, 
            Washington, D.C.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Frank 
A. LoBiondo [Chairman of the subcommittee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee on Coast Guard 
and Maritime Transportation will come to order.
    The Subcommittee is meeting this morning to review the 
Coast Guard's recent mission performance and, in particular, 
the Service's efforts to balance its assets and personnel to 
carry out each of its homeland security and non-homeland 
security missions. The Subcommittee has held several hearings 
to review mission balance and performance during my time as 
Chair, and I hope that we will hear from the witnesses on how 
the Coast Guard is working to successfully meet its goals for 
each of its many important missions.
    Following the terrorist attacks of September 11th, the 
Coast Guard was given substantial additional responsibilities 
to secure U.S. ports, vessels, and coastal waters. At the same 
time, the Subcommittee was concerned about the efforts these 
additional homeland security responsibilities would have on the 
Coast Guard's capabilities to accomplish its traditional 
missions. Section 888 of the Homeland Security Act of 2002 
prohibits the Secretary from ``substantially or significantly'' 
reducing the missions of the Coast Guard or the Service's 
capability to perform these missions. This is obviously 
critical since the lives of mariners, recreational boaters, and 
others often depend on the Coast Guard's ability to perform 
these traditional missions.
    Events in recent years have reminded us of the critical 
importance of the Coast Guard's traditional missions. The Coast 
Guard Search and Rescue mission was prominently displayed in 
the response to Katrina and Rita on the Gulf Coast last year. 
Likewise, the Coast Guard has carried out activities to prevent 
and respond to oil spills as part of the Service's Marine 
Environmental Protection mission, including two major oil 
spills, one in the Delaware River and one in Alaska. We, as a 
Nation, simply cannot afford to allow any erosion of the Coast 
Guard's ability to accomplish these non-homeland security 
missions.
    The Homeland Security Act of 2002 also requires the Office 
of Inspector General for the Department of Homeland Security to 
conduct an annual review of the Coast Guard's mission 
performance, with a particular emphasis on examining the 
Service's performance of non-homeland security missions.
    In July of 2006, the report for fiscal year 2005 was 
published and has important conclusions. The report indicated 
that the Coast Guard's mission resource hours, the number of 
flight hours for aircraft and underway hours for boats and 
cutters, has increased for both its homeland security and non-
homeland security missions. It concluded, however, that the 
Coast Guard is within 4 percent of its statistically projected 
maximum level of resource hours.
    As a result, the Inspector General found that the Service 
``will be unable to increase its total resource hours without 
the acquisition of additional aircraft, cutters, and boats.'' 
The report is saying that we have reached the end of the road, 
we can't squeeze anything more out of these rapidly failing 
legacy assets. Consequently, it is again evident that Congress 
must accelerate the production of new Deepwater assets and the 
program itself.
    I am truly concerned about the pace of Deepwater 
recapitalization. I again take this opportunity to urge my 
colleagues to support funding levels that will not only allow 
the Coast Guard to acquire the assets they need, but will allow 
the program to be accelerated and brought online over the next 
15 years rather than the 25 year projected time line in the 
revised plan.
    The report also revealed that, despite success in 
increasing mission hours, the Coast Guard still has room for 
improvement in its performance. Although the report seems to 
indicate problems that need to be addressed, I am mindful that 
the Coast Guard has only a limited number of assets and 
personnel. I hope that the witnesses' testimony will address 
whether the Coast Guard and the Inspector General feel that the 
performance measures are accurately reflecting the job that the 
Service is doing, and I thank the witnesses for coming this 
morning and look forward to their testimony.
    Mr. Taylor, would you like to make any opening remarks?
    Mr. Taylor. I think Mr. Baird did.
    Mr. LoBiondo. Mr. Baird, would you?
    Mr. Baird. No.
    Mr. LoBiondo. Okay, we would like to welcome this morning 
Rear Admiral Joseph Nimmich, the Assistant Commander for Policy 
and Planning of the United States Coast Guard, and Edward 
Stulginsky from the Deputy Assistant Inspector General for 
Audits, Department of Homeland Security. Thank you for being 
here.
    Admiral, please proceed.

    TESTIMONY OF REAR ADMIRAL JOSEPH L. NIMMICH, ASSISTANT 
COMMANDANT FOR POLICY AND PLANNING, UNITED STATES COAST GUARD; 
 AND EDWARD STULGINSKY, DEPUTY ASSISTANT INSPECTOR GENERAL FOR 
            AUDITS, DEPARTMENT OF HOMELAND SECURITY

    Admiral Nimmich. Chairman LoBiondo, distinguished members 
of the Committee, thank you for this opportunity to discuss 
Coast Guard mission performance and balance.
    Mr. Chairman, as you well know, the Coast Guard is an 
amalgamation of authorities, capabilities to protect our 
maritime nation. Through 216 years of thoughtful consideration 
and legislative initiatives, we, I mean the Administration, the 
Congress, and Coast Guard, have collectively built an 
organization to help guarantee, at once, the safety, security, 
and the prudent stewardship of the maritime domain.
    The Nation's need for a prepared and ready Coast Guard is 
not static. New challenges emerge as others are mitigated. The 
Coast Guard must be steadfast in its character, but adaptive in 
its methods. Our mandate and responsibility, indeed our 
passion, is serving the Nation with the best leadership, 
authorities, and capabilities we can muster.
    The Committee provides the oversight to ensure the Coast 
Guard balances these mandates, and I am here today to provide 
you with status of our efforts.
    Let me take a moment to update you on a few recent cases 
that serve to illuminate our steadfast character, adaptive 
methods, and our commitment to balance as we strike across our 
roles of safety, stewardship, and security.
    When you discuss mission balance, there is no better 
example than Hurricane Katrina. You are well aware of the 
extraordinary lifesaving stories, but what you may not be aware 
of are the other Coast Guard missions that were conducted 
simultaneously: Aids to Navigation Unit surveyed, marked, and 
cleared waterways for reopening, ensuring the maritime 
transportation of relief supplies, commercial use of waterways 
was restored within days; the Coast Guard was mitigating the 
effects of what amounted to the second largest hazardous spill 
in our Nation's history; safety, security, and stewardship 
concurrently, without the need for any declaration or a rush to 
change authorities. Congress has already ensured alignment and 
investment in the right authorities for the Coast Guard.
    The Katrina response was not an anomaly. Rather, it 
provided many examples of multi-mission performance in a hazard 
of exceptional proportions. Literally every day there are 
significant examples of Coast Guard mission execution providing 
safety, security, and stewardship in the maritime domain. Just 
recently we have responded to the Calcasieu River spill near 
Lake Charles, a 2 million gallon spill of waste oil from a 
holding system. It shut down a 20 mile stretch of the Calcasieu 
River and the intercoastal waterway in Southwest Louisiana. The 
potential impact on one of our largest refineries was to be 
shut down. The Coast Guard led a partnership with industry and 
government which worked to prioritize vessel movements during 
the cleanup operations, keeping the refinery open and ensuring 
effective cleanup.
    Rescue 21 is living up to its purpose. In a single 
afternoon over the 4th of July weekend, our sectors Tampa-St. 
Pete received seven calls on the Rescue 21 system. Six of those 
were not received on our legacy system, which was being run in 
parallel as a measure of effectiveness.
    Mr. Chairman, you have already seen, this past November, we 
received a limited distress call from a mariner off the New 
Jersey coast. He reported his position and we moved in that 
direction. After using the Rescue 21 reconstructive direction 
finding capability, we redirected the assets over 20 miles, 
successfully recovering three men in the early stages of 
hypothermia from the 60 degree water.
    In recent days we have had four seizures of drugs, over 
11,000 pounds and 22 suspected drug smugglers.
    Just last week, a Coast Guard C-130 observed a Republic of 
the Marshall Islands flagged vessel illegally hauling nets in 
the Howland-Baker U.S. economic exclusive zone. Coast Guard 
Cutter Walnut, a buoy tender, pursued, boarded the vessel, and 
seized 500 tons of tuna on board.
    And to my right you see the pictures of the Cargo ACE. As a 
result of shifting cargo and ballasting, the vessel went to an 
80 degree list and threatened the total loss of its vessel, its 
cargo, and over 2,000 gallons of fuel and petroleum products. 
Coast Guard-led Unified Command ensured the rescue of all 23 
crew members and a salvage plan was instituted which mitigated 
all potential pollution. The vessel is safely on its way to the 
United States.
    Steadfast in our character, adaptive in our methods, the 
Coast Guard's preparation in response to all hazards and 
threats is built upon our principles: clear objectives, 
effective presence, unity of effort, on-scene initiative, 
flexibility, managed risks, and restraint. Underpinning our 
drive towards mission balance and effective mission execution, 
through the blending of legislative authorities and deliberate 
design of our capabilities, the Coast Guard is agile, effective 
force serving all our Nation's maritime needs. Our holistic 
approach to mission execution provides the necessary focus: 
steadfast in character, adaptive in methods.
    Thank you for this opportunity, and I look forward to 
answering your questions.
    Mr. LoBiondo. Thank you.
    Mr. Stulginsky?
    Mr. Stulginsky. Good morning, Mr. Chairman and members of 
the Subcommittee. I appreciate the opportunity to discuss the 
Coast Guard's mission performance for fiscal year 2005.
    My testimony today focuses on a review of the Coast Guard's 
performance of its homeland security and non-homeland security 
missions, and addresses three issues: first, the total number 
of resource hours devoted to Coast Guard missions has 
increased; second, despite increases in resource hours, there 
is room for improving mission performance; and, third, barriers 
to improving mission performance still exists.
    Regarding mission hours, prior to fiscal year 2001, the 
non-homeland security missions represented the largest 
percentage of resource hours within the Coast Guard, using 62 
percent of all resource hours. Following September 11th, 2001, 
the Coast Guard dedicated a larger percentage of resource hours 
to homeland security missions than for non-homeland security 
missions, steadily increasing from 38 percent to 63 percent of 
total resource hours used by fiscal year 2004. In fiscal year 
2005, the percentage of resource hours dedicated to non-
homeland security missions increased for the first time since 
fiscal year 2001.
    Mr. LoBiondo. Excuse me. Could you pull your mic a little 
closer?
    Mr. Stulginsky. Sure.
    Coast Guard data also showed the total number of mission 
hours have increased every year since fiscal year 2001. This 
has allowed the Coast Guard to increase hours used on non-
homeland security missions to within 3 percent of pre-September 
11th hours. Not only are the total non-homeland security 
mission hours approaching baseline levels, but individual 
missions that comprise the non-homeland security category are 
also approaching the pre-9/11 levels in the post-9/11 
environment.
    My second point is that, despite steadily increases in 
mission hours, the Coast Guard is not meeting all of its 
performance goals. The Coast Guard has been much more 
successful in meeting its goals for its non-homeland security 
missions, meeting five of six goals during fiscal year 2005. 
For example, the Coast Guard met the 2005 goal for Search and 
Rescue by saving over 86 percent of mariners who were in 
distress. For fiscal year 2005, the Coast Guard met two of four 
goals for its homeland security missions. Since fiscal year 
2001, three missions--a legal drug interdiction, undocumented 
migrant interdiction, and other law enforcement--have met goals 
in only two of the five years.
    In addition, the Coast Guard only recently developed a 
performance measure for Ports, Waterways, and Coastal Security 
mission. This mission is by far the largest user of resource 
hours of any Coast Guard mission. The key concern regarding 
this newly established risk-based performance measure is its 
subjectivity and, as such, the measure may restrict the 
measure's usefulness for evaluative purposes.
    My last point is that the Coast Guard faces major barriers 
to improving or sustaining mission performance. These barriers 
include: that growth and resource hours has leveled off; the 
Coast Guard has limited and finite assets to respond to a 
crisis; and, three, the Coast Guard lacks a comprehensive 
performance management system
    The first barrier to improve performance is that growth in 
total Coast Guard resource hours, although significantly 
greater than baseline levels, has leveled off. The increase in 
total hours from fiscal year 2004 to fiscal year 2005 was less 
than 1.5 percent, and total resource hours for the Coast Guard 
are reaching a maximum. Based on resource hour data, coupled 
with Coast Guard's limited and finite level of aircraft, 
cutter, and boats, the Coast Guard will be unable to increase 
its total resource hours without the acquisition of additional 
aircraft, cutters, and boats.
    The second barrier is that the Coast Guard has a limited 
and finite number of assets, and, therefore, available resource 
hours to respond to an extended crisis. With no additional 
reserve assets for use in catastrophic situations, the Coast 
Guard must use resource hours normally dedicated to other 
missions to respond to crises and to meet often drastically 
changing mission priorities. For example, in the aftermath of 
Hurricane Katrina, the Coast Guard deployed over one-third of 
its aviation assets from all over the Country to the Gulf Coast 
to aid in search and rescue operations. In moving these assets 
to the Gulf Coast, the Coast Guard did incur additional risks 
throughout the rest of the Country, such as fewer counter-drug, 
fisheries enforcement, and migrant interdiction operations 
conducted in the Caribbean and off the coast of Florida.
    Lastly, in September 2004, we reported that the lack of a 
comprehensive performance management system impedes the Coast 
Guard's ability to gage its performance, allocate resources 
effectively, and target areas for improved performance. In 
addition, we stated that the workload demands on the Coast 
Guard would continue to increase and require experienced and 
trained personnel, contradicting recent declining experience 
levels among its personnel. We also stated that sustaining a 
high operating tempo, due to growing homeland security and 
national emergency demands, would further tax the Coast Guard's 
infrastructure, including its aging cutter and aircraft fleet.
    For all Coast Guard missions, the Coast Guard has been 
sustaining performance through increases in resource hours. 
Much of the credit is due to the dedication and perseverance of 
the men and women of the Coast Guard. We remain concerned, 
however, that the Coast Guard is nearing its resource hour 
capacity, a situation that could significantly limit the Coast 
Guard's ability to ``squeeze out'' any more resource hours from 
its existing assets to ensure the capability and readiness to 
respond to the effects of future environmental crises or major 
terrorist attacks. To improve performance, the Coast Guard must 
ensure that a comprehensive performance management system is 
implemented and that its personnel have the training, 
experience, equipment, and infrastructure needed to perform its 
homeland security and non-homeland security missions.
    That concludes my statement. I would be happy to answer any 
questions the Subcommittee may have.
    Mr. LoBiondo. We thank you very much. We are going to start 
with Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. And I would just like 
my opening statement to be made part of the record.
    Mr. LoBiondo. Without objection.
    Mr. Filner. Ever since we created the Department of 
Homeland Security, we have expressed our hope and our 
understanding that the Coast Guard would continue its 
traditional missions while adding on the new homeland security 
missions. And as the report that the Inspector General referred 
to, there seems to be a reduction in the traditional missions 
and the resources given. For example, in the President's 
proposed budget, we are cutting funding or he proposes to cut 
funding for Marine Safety programs and for Search and Rescue 
missions. So the balance of that Coast Guard mission is of 
concern to us, and there are some areas within that safety 
mission of yours that I just want to ask some questions about 
and see if you have the resources to continue to do that in the 
manner that you have traditionally done it.
    As you know, by law, all vessels over 65 feet and all 
towing vessels over 26 feet have to have so-called AIS, or 
automatic identification system, onboard as of January 1st of 
last year if the vessel operates on the navigable waters of the 
United States. But the Coast Guard regulations only requires 
AIS if the vessel operates in an area where the Coast Guard 
operates its vessel traffic service. So I guess my first 
question is when is the Coast Guard going to enforce the law 
and require these collision avoidance systems on all the 
vessels, regardless of where they operate?
    Admiral?
    Admiral Nimmich. Yes, sir. We continue to refine the 
regulatory framework by which AIS requirements are driven down. 
Initially, it was indicated only in the VTS areas because that 
is the only area we had to be able to ensure enforcement by 
observing it. As we expand the nationwide AIS coverage, we are 
equally expanding the regulatory framework to ensure that those 
requirements are met, sir.
    Mr. Filner. So you are going to get to this at some point. 
But the law says as of January last year they had to have these 
systems. Why aren't we enforcing the law as it exists?
    Admiral Nimmich. Sir, we have not completed the coverage of 
the Country and AIS enhancement that we can see whether they 
have it or not. So you can't enforce something that you don't--
can't see. So as we enclose the Country in the AIS capture net, 
we are expanding the enforcement of that.
    Mr. Filner. Well, I think this was meant for the safety of 
the vessels themselves, right?
    Admiral Nimmich. Yes, sir, it is.
    Mr. Filner. And, I mean, it sounds like you are saying that 
you are not going to enforce the law until you have the 
capability to enforce the law. But our question is what 
resources do you need so you can enforce the existing law?
    Admiral Nimmich. You have given us the resources to 
complete the AIS enhancement around the Country. We have gone 
out with the request for proposals on that and we are 
continuing to close that net, sir. The law exists, and if we 
are on board a vessel and board them, but without boarding 
them, until the AIS is closed, I can't tell you that they in 
fact are abiding by the law or not abiding by the law.
    Mr. Filner. So when do you expect to be able to completely 
enforce the law?
    Admiral Nimmich. By the end of 2007, early 2008, sir.
    Mr. Filner. Three years after the law. I will come back to 
that. Let me ask you a couple other things.
    By law, all vessels over 65 feet and towing vessels over 26 
feet, the same as the previous requirement, must have an 
electronic chart system onboard, and that begins next year. 
Have you yet, or when is the schedule for prescribing these 
requirements for the electronic charts so that they can operate 
in compliance with the law?
    Admiral Nimmich. I can't answer that, sir. I will get you 
an answer for the record.
    Mr. Filner. So you don't know when you will be able to 
enforce the law that is supposed to be enforced next year?
    Admiral Nimmich. I will have to go back to our law 
enforcement office to identify what their enforcement regime is 
or protocols are, and I don't have that currently in front of 
me, so I will answer that for the record.
    Mr. Filner. Well, I am informed--by the way, these answers 
are a little bit disconcerting because if you look at another 
active that we passed in 1988, the Commercial Fishing Vessel 
Safety Act, which required such things as stability tests, We 
are now 18 years and you still haven't prescribed those 
standards, as I understand it. Does the Coast Guard have the 
resources or the capability of regulating these marine safety 
standards, or does it have to be done, say, by the Department 
of Transportation, which does other safeties for other modes of 
transportation?
    Admiral Nimmich. Sir, we continue to enforce the marine 
safety regulations to the capacity that we have. We are 
continuing always to refine and improve the regulatory 
framework and the capacity that we have to do it, and we do 
very closely look at the fishing industry as one of our areas 
to ensure that there is compliance.
    Mr. Filner. Well, Mr. Chairman, if the testimony is that 
one law 18 years old, another law 3 years old, another law 
about to take effect, and they don't have the resources or the 
capability of enforcing this, I think that is a pretty big 
concern that we have to look at, sir.
    Admiral Nimmich. Mr. Chairman, if I may, I would be glad to 
bring our law enforcement expertise over to report back to Mr. 
Filner on the activities on those three events.
    Mr. LoBiondo. I think that would be very important, 
Admiral.
    Mr. Filner. Thank you.
    Mr. LoBiondo. Admiral, the OIG report indicates that the 
Coast Guard is within 4 percent of its statistically projected 
maximum level of resource hours and that, as a result, the 
Coast Guard will be unable to increase its total resource hours 
without acquisition of additional assets. With the vessels and 
aircraft deteriorating at the expected gap where less assets 
will gradually be available and Deepwater assets still are not 
online, we have got a chart that we put up showing this gap--
    Admiral Nimmich. Yes, sir, I am familiar with the chart.
    Mr. LoBiondo.--with the patrol boats, how are we going to 
do this? It looks like it is impossible.
    Admiral Nimmich. Sir, it is the allocation of scarcity that 
the Coast Guard has faced since 1790. We have never had 100 
percent of the mission assets that we have always thought we 
would need to make every mission completely successful. We 
balance that through a risk-based decision-making process where 
we look at the best impact that we can have across what the 
highest risk the Country faces. So we allocate those assets to 
those highest risks. The newer assets that we get have more 
capacity or more capability--not capacity, but more capability. 
Asset hours are not an appropriate single reflection of our 
ability to perform. As we bring new assets on, like our 47 
footers, our 87 footers, they have more capability than the 
assets they replaced. So a pure asset hour to asset hour 
comparison is not a fair assessment of our ability to perform.
    Additionally, sir, we are doing better at partnering with 
our other law enforcement entities, trying to identify where we 
have similar requirements, similar authorities, and not 
duplicate effort, but ensure that each of us knows what the 
other law enforcement entity is providing.
    So through those methods we will try to mitigate as much of 
the gap as we can. But I can't tell you that there won't be 
some degradation in performance during those gap periods.
    Mr. LoBiondo. It seems it will be unfortunate that we won't 
really know about them until there is something really bad that 
gets reported because of our inability to respond.
    Okay, let me move on. Other than mission hours, what are 
the best methods of measuring the Coast Guard's mission 
performance? You touched on this a little bit.
    Admiral Nimmich. Yes, sir. As you know, we have a series of 
mission indicators and standards that we try to meet. I will 
use the example of Search and Rescue. As the IG indicated, we 
met our Search and Rescue standard last year, at 85 percent of 
mariners in distress. As we identify improved systems like 
Rescue 21, which is not an asset hour, but gives us the ability 
to more effectively respond, we take those asset hours and use 
them in other places.
    At the same time, we continue to modify and monitor our 
performance, and have increased our standard to 87 percent 
because we think we can do better. Our standards are always set 
as a stretch goal. We don't anticipate always meeting every 
standard every year. We continue to try to find ways to do 
business better, but we also challenge ourselves to provide 
more capacity and more product to the Country. In terms of 
Search and Rescue, we have increased our goal because we were 
meeting our goal. The Rescue 21 allows us to be more efficient.
    Mr. LoBiondo. How will the Coast Guard's taking over of the 
enforcement of the no-fly zone in the National Capitol Region 
affect its other missions, in your view?
    Admiral Nimmich. Sir, if you note in our 2007 budget, we 
have a request in there for the procurement of green aircraft. 
Those green aircraft will come in and go through our PDM lines 
to become standard Coast Guard aircraft. In the meantime, while 
they are being upgraded, we will use seasonal variations in our 
workload to address it, as well as continuing the HITRON 
contract to its next--we were anticipating not exercising the 
last option year, and we will exercise that option year to give 
us that capacity that we were going to fill back with standard 
Coast Guard aircraft.
    Mr. LoBiondo. Thank you, Admiral.
    Mr. Oberstar?
    Mr. Oberstar. Thank you very much, Mr. Chairman, for 
calling this hearing.
    Mr. LoBiondo. Thank you for joining us.
    Mr. Oberstar. I very much appreciate your vigilance over 
Coast Guard activities, and Mr. Filner as well, and our 
colleague, Mr. Taylor, whose eye is always on the coast and the 
Coast Guard.
    Admiral, this past summer, beginning of August, the Coast 
Guard published a notice in the Federal Register of 
establishing 34 zones in the Great Lakes where they would 
undertake live fire training missions for your various training 
purposes, the first time anything like that has been undertaken 
on the waters of the Great Lakes. I received a number of 
expressions of concerns from people throughout the Lakes, from 
Cleveland all the way to even in Lake Ontario, all the way to 
Lake Superior, and, along with others, appealed to the Coast 
Guard for an extension of time of the comment period on the 
notice.
    But then, this week, the Coast Guard sends a vessel out off 
two harbors in Security Zone 6 and starts firing within view of 
a pleasure craft, who had been notified about this but didn't 
realize it was going to be within eyesight. And they called the 
local newspaper and then the reporter got on the story and 
started calling around to people, asking their comments, and 
what is going on here.
    Isn't it inconsistent, with extension of comment period, 
for the Coast Guard then to go and undertake within the comment 
period the activity upon which comment is to be received?
    Admiral Nimmich. Yes, sir. We have not done a very good job 
of being able to communicate both the need and our desire for 
fixed Security Zones. We have, starting in 2004, when we made 
an agreement with the Canadian Coast Guard that we would arm 
our vessels as part of our homeland security mission and the 
need to make sure that all of our borders had the capacity to 
deal with any type of an issue that would impact the national 
security, we went about not only arming the boats, but you have 
to train, and you have to train in the environment in which you 
are going to use those boats. We have been conducting live fire 
exercises since the beginning of January of this year.
    The purpose of the fixed Security Zones was to move away 
from random Security Zones that we create when we have to do a 
live fire, to a zone that is more aware for the public that a 
live fire could occur there. You have to activate the zone, the 
fixed zone in order to create that live fire.
    We have been discussing this for the last year or so. We 
were not very forthcoming with the notice of rulemaking on 
that. Based on your input and Representative Hoekstra, we have 
in fact extended the deadline, and I am happy to report that 
the operational commander is in holding for our listening 
sessions within the Great Lakes, one in each sector that he has 
throughout the Great Lakes.
    Mr. Oberstar. It seems he has also been holding a shooting 
session while the comment is going on.
    Admiral Nimmich. Yes, sir, but we have been shooting since 
the beginning of January.
    Mr. Oberstar. But that is inconsistent with a comment 
period, to then go out and do the thing upon which comment is 
invited.
    Admiral Nimmich. But the comment, sir, is not about whether 
we should shoot. The comment is on a fixed zone. We have to 
shoot in that environment. And the comment was to create fixed 
zones rather than, every time we go out for a live fire, that 
we have to create an arbitrary zone that the public may have 
less knowledge of than publishing and putting on the charts 
that there is a fixed zone where we fire.
    It is confusing. The operational commander has canceled the 
live fire that he had for today, and it is under review at this 
point in time.
    Mr. Oberstar. The Air National Guard and, before them, the 
U.S. Air Force, when they had an active mission in Duluth, had 
firing zones over land and over Lake Superior. Those zones were 
published, noticed to the public, comment period was 
established, public comment was received, and when it was all 
received and evaluated, only then did the Air National Guard 
and the active Air Force begin their training missions.
    Then, when they decided they needed to change this zone and 
shift it a little bit--of course, this is parenthetical to my 
point--they were going to go over Luomo's Chicken Ranch, and 
the owner called and said, do you realize how much of a 
liability the Air Force is going to have if they run those 
airplanes over my chicken farm? I have got 100,000 of them. 
They will scare the hell out of them; they will all roll over 
and die. The Air Force and the Air National Guard sent teams 
down to look at the chicken ranch and decided that they would 
move the zone.
    And then they moved it over the Boundary Waters Canoe Area 
Wilderness. I said, do you realize you will be violating the 
air space reservation over the wilderness and you might scare 
the hell out of canoeists going out in that area? And they 
adjusted it again.
    They seemed to be much more responsive to public opinion 
than the Coast Guard in undertaking this activity. I urge you 
to withhold the live fire activities until further comment such 
as concerns from environmental groups, the Izaak Walton League 
and others, who are concerned about--including the mayor of 
Duluth--about lead deposits in these zones and what the effect 
might be on aquatic life? Have you made that evaluation?
    Admiral Nimmich. Yes, sir, we have done two environmental 
assessments that are available online. They are being made 
available as part of the comment period. Both of those show 
that the impact has minimal effect on those large bodies of 
water in terms of safety to human life or the environment that 
they are in.
    But I do want to stress that the operational commander, who 
is responsible for the readiness of his units--and these units 
on the Great Lakes, although they are operating on the Great 
Lakes today, may be asked to operate in the New Orleans 
environment tomorrow, and they need to be able to be sent as a 
completely prepared unit--he has canceled the gun execs that he 
had planned for today.
    Mr. Oberstar. Well, I appreciate that. I will have to take 
a look at the environmental impact statement. Some people seem 
to think that Lake Superior is so big it can absorb any amount 
of material deposited in that water. I will remind you that the 
Great Lakes are one-fifth of all the fresh water on the face of 
the earth. Lake Superior is equal to the volume of the other 
four Great Lakes combined. That whatever you deposit on the 
bottom of that lake, 135 feet below the surface, is below the 
thermoclime, and waters do not turn over, and that pollution, 
whatever it is, polluted material or inert material, is going 
to stay there.
    Admiral Nimmich. Sir, I will make sure we provide your 
staff those two studies that were done. And I am also proud to 
tell you that I do understand a significant portion of Lake 
Superior. I had the honor to sail on Lake Superior for over two 
years.
    [The information received follows:]

        The study that was conducted is titled, "Preliminary Health 
        Risk Assessment for Proposed U.S. Coast Guard Weapons Training 
        Exercises", and is publicly available as part of electronic 
        docket number 25767. The docket can be found at http://
        dms.dot.gov

    Mr. Oberstar. Well, that is terrific; you do have an 
appreciation of that. So then why couldn't you just--why 
couldn't the Coast Guard operate these training missions on a 
regularized schedule so that people who are using the lakes 
will be on notice not to enter and to stay within some safe 
distance of the safety zones?
    Admiral Nimmich. Sir, the problem with standardized 
schedules, as you well know, is the weather on Lake Superior 
and on all the lakes. You can schedule it for a day. We had 
this gunner exercise you are referring to scheduled for 
earlier, the week before, when there would have been even less 
traffic in the area, but the weather didn't permit it. So you 
are constrained by weather. There are multiple factors of why 
you can't say you are specifically going to shoot on a specific 
time or period.
    Mr. Oberstar. Well, you could still announce it and then 
announce that we have to change the date. It would seem to me a 
regularized schedule at least puts the public on notice, and I 
would like you to give that some further consideration.
    Admiral Nimmich. Yes, sir, we will take that into 
consideration.
    Mr. Oberstar. You referenced agreement with the Canadians. 
There has long been a prohibition by Canadian government on 
armed vessels entering Canadian waters. What is the nature of 
your agreement with the Canadians, does it permit armed Coast 
Guard vessels enter into Canadian waters?
    Admiral Nimmich. The 1817 agreement, which was actually 
made with the United Kingdom, that has transferred over to the 
Canadians, talks about not having any arms on the Great Lakes 
at all. Our agreement is to have U.S. vessels armed in U.S. 
waters.
    [The information received follows:]

        The United States and Canada reached an understanding in 2003 
        interpreting the 1817 Rush-Bagot Agreement. This understanding 
        provides that U.S. Coast Guard vessels may be armed in U.S. 
        internal waters of the Great Lakes. However, U.S. Coast Guard 
        vessels located in the Great Lakes will have any such armament 
        dismantled and safely stowed when they are in Canadian waters 
        or ports.

    Mr. Oberstar. So you have not reached an agreement about 
entering Canadian waters, but only the agreement of 1817 with 
respect to all waters.
    Admiral Nimmich. Sir, I will confirm that for the record, 
that in fact we can--whether we can or cannot enter Canadian 
waters with armed vessels.
    Mr. Oberstar. Thank you. Could you provide the Committee at 
this moment an update on the inquiry into the incident with the 
Healy in Alaskan waters?
    Admiral Nimmich. Sir, as you know, we had the very 
unfortunate death of two of our Coast Guard members on a diving 
operation off the Coast Guard Healy in the Arctic. As a result 
of--
    Mr. Oberstar. Excuse me, Admiral, but that occurred the 
night before the hundredth anniversary of the Two Harbors 
Lighthouse, where a Coast Guard contingent from Duluth came to 
participate, and I asked for a moment of silence because I had 
been notified of the death just the night before, and the 
commander of the Duluth Coast Guard unit had been in command of 
the HEALY and had trained one of the Coast Guard personnel, a 
young woman, and certified her diving capability, and he was 
shaken, he was in tears over that incident. So I would like to 
know where the inquiry stands.
    Admiral Nimmich. Yes, sir. The investigation is still in 
process. Admiral Allen has assured that the Committee will have 
it at the earliest opportunity. But I am not able to speak to 
the investigation, it has not been made available to me, sir.
    Mr. Oberstar. Well, one of the issues is that the first 
story was that they were diving to try to understand why a 
commercial vessel was stuck in the ice, and then that story was 
retracted and the story promulgated was that they were on a 
training mission. Well, either a vessel was stuck in the ice or 
it wasn't.
    Admiral Nimmich. Sir, as you know, a lot of the first 
reports are often erroneous, with the desire to get information 
out as soon as possible. Admiral Wooster quickly assessed the 
situation. He felt that because of the impact on the crew, he 
had lost confidence in the commanding officer, so he has 
relieved him during the period of the investigation. And I 
don't want to conjecture on things that I don't have knowledge 
of between now. It really requires me to wait for the 
investigation to be completed. But we will provide that at the 
earliest opportunity.
    Mr. Oberstar. Thank you. I very much look forward to seeing 
that report, as will Chairman Young, with whom I discussed the 
matter yesterday.
    One final point is I think one of the objectives of this 
hearing is to understand the Coast Guard's distribution of 
resources in personnel, equipment, and funding to meet its 
balance its homeland security mission requirements with its 
traditional historical line missions of safety and service to 
sailing. But the Coast Guard is spending more time on missions 
than it has historically done, and that much of that time, 
maybe even a preponderance of that time, is spent on homeland 
security.
    One of the issues that Chairman Young and I and others on 
this Committee--I think Mr. LoBiondo also raised--when the 
Homeland Security Department was being created, was that, first 
of all, the Coast Guard should not be included in this mish-
mash Department of Homeland Security. Secondly, there should be 
a clear delineation of its homeland security function from 
Search and Rescue, Safety at Sea, buoy tending, and all the 
rest that the Coast Guard does so superbly. And when that is 
done, adequately resources allocated to the Coast Guard to 
carry out this additional function.
    And over the years that I have served in Congress, in 
1974--1975, actually sworn in in 1975--we have added 27 
missions to the Coast Guard, but we have never fully funded 
those missions. And this is another one that has not been 
adequately funded. It seems to me that our concerns are being 
borne out, our prediction of inadequate resources for the Coast 
Guard to carry out this function are bearing out, and you are 
in the unenviable position of having to defend the Coast 
Guard's performance against a diminishing resource base.
    You may want to take the Fifth Amendment on that, I don't 
know.
    Admiral Nimmich. Sir, what I would point out is that we 
continue to monitor all of our missions and the performance, 
the effectiveness, not necessarily the asset hours that are 
reflected on each mission. We continue to work very closely. If 
you take boating safety, you don't see hours reflected in the 
IG's report for what the auxiliary does to ensure that boaters 
are trained, that we have reduced the number of accidents and 
reduced the number of deaths that way. We take a holistic 
approach to how we look at our mission sets and try to partner 
and utilize our assets, but also other methodologies of getting 
the performance that the American public expects from us. And 
we do the best we can based on a risk-based approach with what 
we are giving.
    Mr. Oberstar. You are doing the best you can under the 
limited circumstances.
    Thank you, Mr. Chairman, for the extended time.
    Mr. LoBiondo. Thank you, Mr. Oberstar.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Admiral, I would like to shift gears and ask you a couple 
of planning questions based on the events of last year about 
this time.
    One of the things that hit me that will be no more than--
the generals and the admirals that appear before Armed Services 
have pretty well convinced me that we are probably going to 
live to see a weapons of mass destruction attack on the United 
States. Given that so many of our major cities are on the 
waterfront somewhere--Los Angeles, New York, Miami, New 
Orleans. And given what happened last year with Katrina and the 
shortages of fuel, ice, berthing, what kind of lists has the 
Coast Guard prepared to hand over to the DOD or the Department 
of Homeland Security as far as resources that are available?
    And I will start with the analogy what really happened in 
the case of Mississippi, the dire need for fuel. You know, 
there wasn't electricity for 200 miles in any direction for a 
few days. So that means every gas station is out, all the 
jobbers are out, many of the waterfront facilities, their pumps 
went under water, so the case of Murphy Oil in New Orleans, the 
place is just scattered.
    And one of the things that hit me--your roads are blocked 
with trees. Even the ones that are opened are usually open down 
to one lane, a lot of zigging and zagging, almost impossible to 
get a tanker truck through. And it hit me later that, geezum, 
there are companies in the business of underway replenishment 
of ships that have their own generators onboard. And instead of 
fighting to get these trucks down one at a time at the 
eyedropper approach, one barge load of diesel, one barge load 
of gasoline would have kept every emergency vehicle going for a 
month.
    So, to that end, since you are in the position or since the 
Coast Guard is in the positions of licensing these operations, 
what kind of list do you keep on them? To what extent do you 
coordinate with Homeland Security that these things are 
available? To what extent do you coordinate with the coastal 
counties, Orleans Parish, Harrison County, Mississippi to let 
them know that these sort of things are available when their 
local jobbers go out?
    And in addition to that, I am fairly certain that you also 
license quarter boats. I remember a conversation I had both 
with Admiral Mullin, the CNO, and with Lieutenant General 
Steven Blum, the Chief of the Guard Bureau when I am making 
that call to them we need help, I found it really interesting 
that both of them, within the first couple of sentences, said 
where can I put my people. And for a couple of reasons. Number 
one, it meant that they had lost contact with the bases down 
there. But also what a serious consideration that is when you 
are trying to get people in there in a hurry so that they can 
go to work, rather than spending their time putting together 
their own barracks or their own housing.
    So to what extent do you keep track of the quarter boats, 
of the river boats like the Mississippi Queen and the other 
boats that have berthing available? To what extent do you keep 
track of the underway refueling services? And how do you pass 
that information off to the Department of Homeland Security? 
And the other thing I really found about FEMA is that they are 
all rookies. There is a very, very small core of professional 
FEMA employees. They call on people from AG, they get people 
out of Forestry, they get people all over the place, none of 
whom knew their job. And they are certainly not going to know 
about these assets unless you hand it to them and say if you 
need fuel, you call this guy; if you knew berthing, you call 
this guy.
    There used to be--I don't know if it is still there. There 
used to be a barge that would travel the Mississippi River 
delivering water to the ships. My God, we are flying in bottles 
of water in helicopters from upstate. What would one barge load 
of potable water have done for some of these communities?
    So, again, a little bit different than what you wanted to 
talk about today, but I don't get that many opportunities to 
see you face-to-face, and I think these are things that we 
ought to be addressing now, before it happens.
    Admiral Nimmich. Congressman Taylor, I am very comfortable 
answering the question for you. And you have actually asked me 
what I see as two different elements of it. One is how do we 
support FEMA with that information and those resources that we 
have, and to help DoD bring those resources to the battle. And 
it is actually supporting FEMA through several of the emergency 
support functions, ESF-1 on transportation, ESF-10 on hazardous 
materials, all of the different ESFs. And we have Coast Guard 
personnel that are trained and go into all of those different 
segments.
    Mr. Taylor. Admiral, if I may.
    Admiral Nimmich. Yes, sir.
    Mr. Taylor. Just in case there is a county emergency 
operator watching this or watching this tonight on C-SPAN, and 
you are going to ESF. You have to shoot over most congressmen's 
head, shoot over my head, I beg you shoot over his head.
    Admiral Nimmich. An Emergency Support Function Coordinator.
    Mr. Taylor. Okay, so, again, for the guy who is in charge 
of emergency operations for Harrison County, Mississippi, 
Jackson County, Hancock County, Orleans Parish, what can you 
bring to the table so that he has got a number to call to say, 
you know what, I need a barge load of fuel?
    Admiral Nimmich. Sir, we do that on a regular basis. All of 
the training exercises that we have held in Mississippi with 
your Emergency Operations Centers, they set up these emergency 
support functions and Coast Guard personnel sit in them with 
the knowledge of what we can bring to the fight. And if you 
look back--
    Mr. Taylor. Okay, let's go back a year. Did you do that 
last year? Because I don't think you did.
    Admiral Nimmich. Yes, sir, we did.
    Mr. Taylor. I am going to--in the case of Hancock County, 
Mississippi, I know you didn't.
    Admiral Nimmich. Not at the county level; at the State 
level, sir.
    Mr. Taylor. Again, let me walk you through this. In Bay 
Saint Louis, Mississippi, I couldn't call a golf board, I 
couldn't call my governor--I could call you--because the local 
links were down. So I really do think you have to disseminate 
it on a county by county basis. No one could have imagined that 
on one day the Biloxi Bridge would be gone, the Bay Saint Louis 
Bridge would be gone, the I-10 Bridge over Lake Pontchartrain 
is gone. All these roads that we thought would be there under 
any circumstance are gone. So we got bit one time by the 
unimaginable. We sure as heck better be prepared for it next 
time.
    Admiral Nimmich. Yes, sir. And not to be too overly 
confident here. One of the things you are asking me to do as a 
Federal entity is to circumvent the State and go to the county 
level, and I can't do that. I have to work through the State 
infrastructure to support that county. Governor Barbour would 
not particularly want the Coast Guard to go into the county 
EOC; he wants us in the State EOC to ensure that we can support 
the County.
    Mr. Taylor. But, Admiral, I am just telling you there was 
no communication between the State EOC and Hancock County. I 
know that for an absolute fact. So you are setting yourself up 
for that mistake again.
    Now, I am a big believer if the dog bites me once, it is 
the dog's fault. If the dog bites me a second time, it is my 
fault.
    Admiral Nimmich. Yes, sir.
    Mr. Taylor. I am telling you of something that happened.
    Admiral Nimmich. Yes, sir.
    Mr. Taylor. And I am asking you to keep it from happening 
again, and you are telling me, in effect, you are going to let 
it happen again.
    Admiral Nimmich. I understand what you are telling me, sir.
    Mr. Taylor. I mean, how hard is it to put together a list 
of these? Are the folks we have underway replenishment 
capabilities, with their own generators onboard and their own 
pumps onboard?
    Admiral Nimmich. We can provide that list without having a 
Coast Guard representative at any county that would like the 
list, sir. But the other issue you have got is the 
infrastructure to be able to utilize that. When you are talking 
about the City of New Orleans, the Iwo Jima can tie up at the 
pier and provide generator capabilities, water capabilities. 
When you are talking about the shoreline of the Mississippi, to 
get that from there to part of the infrastructure is a much 
more difficult process. It can be done, but it is a much more 
difficult process, as you know, sir.
    Mr. Taylor. And it also reminds you that we hijacked the 
Iwo Jima and got it off a ship because of our district needs. 
So, again, if your plan is just for one of these things, I 
mean, we have been through this.
    Admiral Nimmich. Yes, sir.
    Mr. Taylor. And, to the best of my knowledge, no one died 
for lack of medical care, but we came mighty close. To the best 
of my knowledge, no one died of starvation. We came mighty 
close. To the best of my knowledge, no one died of dehydration. 
We came way too close on all of these things. And I do think we 
can do better, and you have those resources at your fingertips. 
All I am asking is that you share that information with the 
folks who are going to need it in an instantaneous basis the 
next time this happens. I think that is a pretty reasonable 
request.
    Admiral Nimmich. I think that is reasonable, sir, and we 
will be glad to provide the information we have with every one 
of the counties, yes, sir.
    Mr. Taylor. Thank you, sir.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Taylor. I am well over my time. I think you need to ask 
the Chairman.
    Mr. Oberstar. I just want to ask what is the interface 
between the Coast Guard, FEMA, and the State and the county in 
the issue that the gentleman from Mississippi raised.
    Admiral Nimmich. Yes, sir. The way the interface works is 
FEMA is the responsible entity of the Federal Government to 
coordinate the Federal response. They do that through a series 
of emergency support functions such as transportation, such as 
medical, such as commodities, and moving commodities or 
restoring infrastructure. The Coast Guard supports those ESFs, 
as well as doing our normal efforts that are required by our 
legislation, not by anything else. The search and rescue that 
you saw in New Orleans, those are Coast Guard functions that we 
do whether there is a declared emergency or not. The Coast 
Guard supports FEMA and works through FEMA to provide those 
services, sir, and it normally provides from the Federal 
Government through the State entity, and the State directs 
where the Federal Government should provide those resources 
down to the county level. It is the Federal Government support 
the State the way it is supposed to work, sir.
    Mr. Taylor. Mr. Chairman, you have been very generous and, 
Admiral, you have been very generous with your time, but, 
again--the last time I am going to mention this--you flew in a 
crackerjack reserve captain by the name of Ed Stanton either 
the day after the storm or the day after that, and he did a 
very good job with the resources he had. But not to belabor it, 
if he would have showed up with a list, say starting from 
Panama City and maybe going as far as Houston, of saying these 
guys are in the underway replenishment business. We all know 
the storm is not going to hit everywhere. In this instance we 
knew that most of Coastal Louisiana was out, all of Coastal 
Mississippi was out. But if we had the name of a guy in 
Pensacola or Panama City, or maybe even Mobile that could have 
brought in barge loads of fuel, we would have been a week ahead 
of ourselves in the recovery.
    Admiral Nimmich. Yes, sir.
    Mr. Taylor. And, again, if it is a weapon of mass 
destruction, it is going to be even worse.
    Admiral Nimmich. What we have done--and I think you keep 
referring back to the capacity of the Department of Defense, 
and being able to bring that capacity more rapidly to the fight 
or to the event. And what we have done--and I say we, this is 
Homeland Security through FEMA--have created prescripted 
mission assignments, and those prescripted mission assignments 
not only identify where those assets are, but how we can 
expedite DoD's process to be able to get them to the fight as 
quickly as possible.
    Mr. Taylor. Former Congressman Paul McHale has that job at 
the DoD, and he is a very sharp guy. But I have got to tell 
you, when I brought this up with him a couple months ago, he 
really wasn't aware of these capabilities. And that is why I am 
asking you, because you are aware of them, to work with him--
    Admiral Nimmich. Yes, sir, we will continue to work--
    Mr. Taylor.--so we are better prepared next time.
    Admiral Nimmich. Yes, sir.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Taylor.
    I would like to ask unanimous consent that Mrs. Kelly be 
allowed to sit on the Committee for the hearing. Without 
objection.
    Mrs. Kelly.
    Mrs. Kelly. Thank you very much, Mr. Chairman.
    Admiral, I want to congratulate you on a lot of the very 
good work that the Coast Guard does. We, two weeks ago, 
reenacted the crossing of the Hudson River with George 
Washington, and there were five boats oared by volunteers 
crossing, and the Coast Guard did an excellent job, because the 
boats are very, very tippy and the river is very swift where 
Washington chose to cross. So I thank you for not only the 
quality of support there, but also for the many things that I 
know you do on the high seas to keep us all safe along the 
coast.
    You and I have discussed this river, and right there where 
Washington crosses is the Indian Point Nuclear Facility. In May 
you agreed with my assessment that the tugboat that the Coast 
Guard is using right now is simply inadequate to provide proper 
support for protection of the nuclear facility. That nuclear 
facility that I represent is the Nation's top nuclear target as 
far as the terrorists go, we all know that. Since then, since 
May, as you are aware, this Committee passed the 2007 Coast 
Guard reauthorization bill which included language, that I 
authorized, clarifying the Coast Guard's role as the lead 
Federal agency for protection of nuclear power facilities on 
navigable waterways. The provision also provided for the 
coordination between the Coast Guard and the Nuclear Regulatory 
Commission to try to better safeguard these facilities and 
other facilities like Indian Point.
    The nuclear facilities that are located near navigable 
waters truly need an upgrade from the Coast Guard in their 
protection, and I believe that this provision that we passed is 
going to go a long way toward protecting a segment of our 
Nation's energy. And I am going to continue to work with this 
Committee and Chairman LoBiondo, as I have before, to make sure 
we champion and support the Coast Guard's Deepwater program and 
make sure it is included in the negotiations with the Senate.
    But, sir, since 9/11, we know how difficult it can 
sometimes be for two Federal agencies to coordinate plans. And 
while I have great confidence in the Coast Guard, I can't say 
the same for the Nuclear Regulatory Commission. So I would like 
to ask where we are today with how the Coast Guard is going to 
implement the changes that we called for in our resolution and 
the vote that we passed.
    Admiral Nimmich. Yes, ma'am. I was just confirming to make 
sure I had a correct assessment that the authorization act for 
2007 that was passed by the House is in conference with the 
Senate right now.
    Mrs. Kelly. That is just what I said, Admiral.
    Admiral Nimmich. I am sorry. It has not been enacted as of 
yet.
    We appreciate your leadership and your support. Clearly, 
the Committee has expressed their concern and we look forward 
to continuing to work to ensure that the Committee is 
comfortable with the security of the power plants. But with 
regard to Section 212, I need to stress that it is our role to 
support the Nuclear Regulatory Commission. They are still the 
primary agency by which security of nuclear power plants 
resides. And we believe that we already have a lot of 
cooperation with them and will continue to provide and receive 
assistance from other Federal and States. As you know, the 
State has taken some significant efforts there and we continue 
to support them.
    Mrs. Kelly. Well, the State--the New York naval militia has 
two brand new boats, but you and I agreed, when you were here 
before, that what was needed was a boat that was capable of 
sustaining a fixed piece of artillery that was no less than 25 
millimeters, because that is the only thing--that or more--that 
can stop a speeding boat intent on blowing up especially the 
edge of the nuclear plant, the river edge. So who is supposed 
to--help me here. Who is supposed to be asking for this? Is 
that the Nuclear Regulatory Commission or is this something you 
could just go ahead and do, get us a bigger boat and put some 
fixed armament on it? Because right now all we have got is 
sidearms.
    Admiral Nimmich. Yes, ma'am. And we work with the Nuclear 
Regulatory Commission to identify the security needs of the 
Indian Point Power Plant, and they have not indicated or we 
have not come to an agreement on what the waterborne security 
requirements necessarily need to be there.
    Mrs. Kelly. Well, I have just spoken with the new chairman 
of the Nuclear Regulatory Commission, and I will bring that up 
again with him, and maybe we can get the two of you together. 
Thank you very much.
    And I appreciate so much, Mr. Chairman, your allowing me to 
sit in on this.
    Mr. LoBiondo. Once again, Mrs. Kelly, we are more than 
happy to accommodate you.
    Admiral, one more question on the no-fly zone for the 
Capitol Region. Question at the request of Mr. Hoekstra, who 
sits on this Committee and, of course, is Chair of the 
Intelligence Committee: Next spring, what is going to happen 
with the seasonal helicopters? Most importantly, he is 
concerned about out of Muskegon, Michigan, how we are going to 
meet the mission and what is going to happen to that seasonal 
helicopter that is being used.
    Admiral Nimmich. Yes, sir. As I had indicated in how we are 
responding to the standup of the National Capitol Region 
protection, we are using seasonal assets that we will bring in 
to stand up the initial. Those will--across the board we will 
balance our aircraft fleet to ensure that we meet all of the 
requirements that we have attested and that we have set out for 
ourselves. So we will look at through our training commands, 
through other air stations to ensure that we meet all of the 
requirements that we have, that the Committee has given us to 
meet with aviation standards.
    Mr. LoBiondo. But I am assuming to meet the mission right 
now there is one of the helicopters out of Michigan that is 
being borrowed, is that--
    Admiral Nimmich. That is correct, sir.
    Mr. LoBiondo. So you are just going to have to--he is going 
to have to trust us that by next summer it gets back to him?
    Admiral Nimmich. We will take additional aircraft out of 
the PDM line, our maintenance line and out of our training 
commands to backfill them if we have not gotten enough aircraft 
up to refill that right away, sir.
    Mr. LoBiondo. Okay. Thank you.
    Mr. Stulginsky, just one or two quick questions. We are 
talking about this mission capability, and I have got just a 
serious concern. Will you once again just talk to me a little 
bit about, in your view, is the Coast Guard sustaining its full 
range of missions?
    Mr. Stulginsky. If you look at how they are accomplishing 
their performance measures, they are. If you look at the 
mission hours associated with each one of those missions, we 
see Coast Guard in the non-homeland security missions approach 
the pre-9/11 mission hours. So it appears from the data 
available that they are meeting their missions.
    Mr. LoBiondo. I guess pretty tough to project a couple 
years from now, in your opinion, what that will look like?
    Mr. Stulginsky. It is. You know, as we mentioned in our 
report that Coast Guard has very little bench strength to call 
on, so there are no more assets available to apply to the 
missions. Coast Guard is having difficulty maintaining their 
cutters, for example. They are operating a lot of hours. It 
will be up to Coast Guard to do the maintenance necessary to 
keep them operating. It is going to be a challenge in the 
future, yes.
    Mr. Filner. Would the Chairman yield for a moment?
    Mr. LoBiondo. I will turn it over to you.
    Mr. Filner. Just to follow up on the Chairman's question. 
You said are they meeting their mission goals. I am just 
looking at your report and it says the Coast Guard met only 26 
percent of its performance goals in fiscal year 2005 for its 
homeland security mission. Let's see. And then, over time, only 
Aids to Navigation and Marine Environment achieve the 
established goals of the five year period; and seven of the 
remaining missions did not consistently meet goals. So how can 
you say that they met the goals?
    Mr. Stulginsky. The gap between the actual performance and 
the goal is very narrow.
    Mr. Filner. Is what?
    Mr. Stulginsky. Is very narrow. For example, in Migrant 
Interdiction, their goal was to apprehend--
    Mr. Filner. The goal was to save three lives. They only 
saved two. The third person is going to have a little bit of a 
problem with it.
    Mr. Stulginsky. Yes, but they are meeting their Search and 
Rescue goal. But Migrant Interdiction their goal was 88 
percent; they are roughly about 86 percent. So they are two 
percentage points--
    Mr. Filner. How about Drug Interdiction, what was the goal?
    Mr. Stulginsky. Drug Interdiction, less than 19 percent, 
making it through the gap.
    Mr. Filner. The goal? I am sorry, what was the goal for 
Drug Interdiction?
    Mr. Stulginsky. Percentage of cocaine moved--the total 
estimated cocaine entering the U.S. through the maritime means, 
less than 19 percent.
    Mr. Filner. The goal is to interdict less than 19 percent?
    Admiral Nimmich. Sir, the goal on drug interdiction is a 
withdrawal rate, it is a percentage of the expected flow that 
we think we can interdict in the maritime environment is, I 
believe, 19 percent withdrawal rate.
    Mr. Filner. I mean, we only--when Admiral Collins was 
commandant and he testified that they had interdicted 15 
percent, and you are close to the goal. But why should we, as a 
Nation, set such a low goal for the interdiction of cocaine? 
Who set that goal?
    Admiral Nimmich. The Office of National Drug Control Policy 
reviews our budget and certifies our goals, sir.
    Mr. Filner. Do you think that is a high enough goal for 
this Nation?
    Admiral Nimmich. Sir, it has been an established goal that 
we have tried to achieve with the resources we have, and we 
continue to have record years of cocaine seizures.
    Mr. Filner. Well, I don't know how you can say that with a 
straight face in that, if you set a goal low enough, you will 
reach it. But, I mean, I find it very disconcerting, to say the 
least, if not more troubling that you are satisfied with such a 
low goal, and we can't even reach that one.
    Mr. LoBiondo. Mr. Taylor, do you have any follow-ups?
    Mr. Taylor. Admiral, I am going to beat this dead horse one 
more time. And I want to start with an incident that I actually 
saw. We had a lot of people die, and it overwhelmed the local 
funeral, and there was no electricity, and the local mortician 
comes to me, you have got to find me a place to put these 
bodies. About this time, the ice trucks started coming in, so I 
said, well, turned to the EOC guy, go buy an ice truck.
    Well, the ice truck guys, being human beings, knew that 
they were making pretty good money, were going to make pretty 
good money for a while, and if they started putting bodies in 
their truck, it could never be used for ice again, and they 
didn't want to sell. Luckily, the head of the Mississippi 
Emergency Management--and I mean by sheer luck--shows up about 
that time and we kind of bullied one of the guys--I don't think 
we had the legal authority--we kind of bullied one of the guys 
into selling us a truck. There is no other word to use. So that 
is my little experience with people wanting to make a few bucks 
in the case of an emergency, and that is a pretty serious 
scenario.
    We all know that if another storm or an attack upon one of 
the major cities, there is going to be a spike in the price of 
oil. Based on what I saw, it is human nature for people who 
have that commodity to want to hang on to it until the price 
goes up and then sell it. It is human nature.
    So my question to you is what laws, if any, are on the 
books to where, if that scenario, where we have got to get fuel 
from Pensacola to Mississippi or from Mississippi to Louisiana, 
Louisiana to Texas, in the event of a natural or manmade 
disaster, what laws are on the books to where you could call up 
that fleet replenishment company and say I want you to send X 
number of barges, X number of barrels of diesel, X number of 
barrels of gasoline to Houston, New Orleans, Biloxi, fill in 
the blank? Do you have the legal authority to make that happen? 
And if you don't have it, I would ask your legal team to give 
me some draft legislation so that we are prepared for that 
scenario, because it is going to happen. I don't want it to 
happen, but I can bet you it is going to happen.
    Admiral Nimmich. Congressman, I can't tell you what the 
legal authorities are or aren't, but we will research that and 
give you an answer. But what I can tell you is that the Coast 
Guard has been very proactive in working with industry to 
establish a recovery framework, and that is what you are really 
asking for, is when the infrastructure breaks in one place, how 
do we use the infrastructure in other places to mitigate the 
influence that is going on there.
    We held a symposium the 1st and 2nd of August with some of 
the best and brightest in the Country, and we are working with 
them to identify a cooperative recovery framework that we would 
be able to use after any natural disaster or any manmade 
disaster of that magnitude.
    [The information received follows:]

        No, the Coast Guard does not have the authority to direct 
        vessels or the delivery of fuel in order to prevent fuel price 
        spikes or for similar economic or supply-related reasons.

    Mr. Taylor. Okay. Given the seriousness of this, what is a 
reasonable amount of time for you to get back to me, what legal 
authority do you have, and if you don't have it, some suggested 
legislation so that we can make this part of a future Coast 
Guard authorization?
    Admiral Nimmich. Sir, we will respond within two weeks.
    Mr. Taylor. Great. Thank you very much.
    Mr. LoBiondo. Is that it, Mr. Taylor?
    Okay, we obviously have some pretty big challenges that we 
have to be concerned with for the Coast Guard and its missions, 
but, Admiral, I thank you for the job you continue to do. We 
will certainly be paying more attention to this.
    And this Subcommittee stands adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0667.001
    
    [GRAPHIC] [TIFF OMITTED] T0667.002
    
    [GRAPHIC] [TIFF OMITTED] T0667.003
    
    [GRAPHIC] [TIFF OMITTED] T0667.004
    
    [GRAPHIC] [TIFF OMITTED] T0667.005
    
    [GRAPHIC] [TIFF OMITTED] T0667.006
    
    [GRAPHIC] [TIFF OMITTED] T0667.007
    
    [GRAPHIC] [TIFF OMITTED] T0667.008
    
    [GRAPHIC] [TIFF OMITTED] T0667.009
    
    [GRAPHIC] [TIFF OMITTED] T0667.010
    
    [GRAPHIC] [TIFF OMITTED] T0667.011
    
    [GRAPHIC] [TIFF OMITTED] T0667.012
    
    [GRAPHIC] [TIFF OMITTED] T0667.013
    
    [GRAPHIC] [TIFF OMITTED] T0667.014
    
    [GRAPHIC] [TIFF OMITTED] T0667.015
    
    [GRAPHIC] [TIFF OMITTED] T0667.016
    
    [GRAPHIC] [TIFF OMITTED] T0667.017
    
    [GRAPHIC] [TIFF OMITTED] T0667.018
    
    [GRAPHIC] [TIFF OMITTED] T0667.019
    
    [GRAPHIC] [TIFF OMITTED] T0667.020
    
    [GRAPHIC] [TIFF OMITTED] T0667.021
    
    [GRAPHIC] [TIFF OMITTED] T0667.022
    
    [GRAPHIC] [TIFF OMITTED] T0667.023
    
    [GRAPHIC] [TIFF OMITTED] T0667.024
    
    [GRAPHIC] [TIFF OMITTED] T0667.025
    
    [GRAPHIC] [TIFF OMITTED] T0667.026
    
                                    

</pre></body></html>
